                         Office of Inspector General, USDA
                            Investigation Developments

∽ September 3, 2010 ∽

FOOD SAFETY AND INSPECTION SERVICE: New Conviction Obtained and $6.7 Million in
Fines Levied in Case of Smuggled Duck, Meat, and Poultry from China

The sentencing of a businessman and major fines against multiple companies are the latest
developments in a joint investigation involving OIG pertaining to the smuggling of Chinese
duck, meat, and poultry into the United States. The businessman pled guilty to conspiracy to
smuggle goods into the United States. In May 2010, a Federal court in New Jersey sentenced
him to serve 12 months of home confinement and 60 months of probation. The companies
involved were assessed penalties of over $6.7 million for their activities.

FARM SERVICE AGENCY: Mississippi Bioenergy Company Owner Sentenced and Ordered
to Pay $2.88 Million in Restitution for False Claims

An OIG investigation disclosed that two owners of a Mississippi bioenergy company had
conspired to defraud the Commodity Credit Corporation (CCC) of $2.88 million relating to
USDA’s Bioenergy program. Both men were charged with submitting false claims. One of the
men was found guilty; in July 2010 a Federal court in Mississippi sentenced him to five years of
imprisonment. He was also ordered to pay $2.88 million in restitution for his part in the venture.
The second owner pled guilty to submitting false claims and is awaiting sentencing.

FOOD AND NUTRITION SERVICE: Michigan Store Personnel Sentenced and Ordered to Pay
$3.74 Million for Scheme to Fund Illegal International Money Transfers

An OIG investigation conducted with the FBI determined that a Somali-owned convenience
store in Michigan had trafficked in SNAP and WIC (Women, Infants, and Children Program)
benefits and operated an illegal money transfer (Hawala) business. The investigation revealed
that the store owners routinely allowed customers to use SNAP benefits to fund the transfer of
money to persons located in the Middle East and the Horn of Africa. The defendants pled guilty
to SNAP fraud, WIC fraud, conspiracy, and operating an unlicensed money transmitting
business. In May 2010, a Michigan Federal court sentenced the store owner to 18 months of
imprisonment and ordered him to pay a total of $1.43 million in restitution and civil penalties.
The manager of the store was sentenced to 30 months of imprisonment and the same
monetary penalties. The court also sentenced two store employees to two years of probation
and ordered each to pay $433,000 in restitution.

ANIMAL AND PLANT HEALTH INSPECTION SERVICE: Missouri Couple is Sentenced and
Ordered to Forfeit Fighting Dogs

An OIG investigation disclosed that a couple in Missouri was involved in an extensive dog
fighting conspiracy in Missouri and neighboring States. In May 2010, a Federal court in
Missouri sentenced the husband and wife to two years of probation for their roles in the dog
fighting enterprise. The court also sentenced the wife to 6 months of home detention. The
couple agreed to forfeit their fighting dogs and have paid over $38,000 in reimbursement for
their care. OIG’s 15-month investigation has identified over 100 persons as participants,
trainers, owners, and/or promoters in this multi-State conspiracy. To date, 14 defendants have
been sentenced to prison terms ranging from 6 to 18 months and probation terms ranging from
24 to 36 months.

FOOD AND NUTRITION SERVICE: New Jersey Store Employee Sentenced and Ordered to
Pay $325,000 in Restitution for SNAP Trafficking and Theft of Government Funds

An OIG investigation revealed that a New Jersey store employee was involved in trafficking
Supplemental Nutrition Assistance Program (SNAP) benefits from July 2008 through April
2009. He pled guilty to theft of government funds. In May 2010, a New Jersey Federal court
sentenced him to 11 months of incarceration, 3 years of supervised release, and ordered him to
pay $325,000 in restitution to USDA. In July 2010, a fellow employee was sentenced to 12
months imprisonment, 3 years of supervised release, and was ordered to pay $325,000 in
restitution to USDA.

ANIMAL AND PLANT HEALTH INSPECTION SERVICE: California Company Sentenced and
Fined $50,000 for False Claims Regarding Imported Vegetables

An OIG investigation in California disclosed that a Los Angeles-based company provided false
certificates of origin to county inspectors in order to obtain multiple Federal Phytosanitary
Certificates (FPCs) for red chili peppers. The company claimed the peppers had been grown in
the United States; in fact, they were imported from India and China. The company pled guilty
to false statements and “aiding and abetting.” In July 2010, a Federal court in the Southern
District of California sentenced the company to 36 months of probation and fined it $50,000.

FOOD AND NUTRITION SERVICE: Alabama Grocery and Bait Shop Owners are Sentenced
and Ordered to Pay $730,000 for Conspiracy to Defraud SNAP

An OIG investigation disclosed that two former owners of a grocery and bait shop had
conspired to defraud SNAP. The individuals provided false receipts for catfish product to justify
fraudulent electronic benefit transfer redemptions at their store. Both men pled guilty to one
count of conspiracy. In July 2010, a Federal court in Alabama sentenced one man to 30
months of imprisonment and the other to 24 months of imprisonment. Each was also
sentenced to three years of supervised release and ordered to pay $730,000 in restitution.

FOOD AND NUTRITION SERVICE: Chicago Store Owner Sentenced and Ordered to Pay
$2.5 Million in Restitution for Conspiracy to Defraud SNAP

An OIG investigation revealed that a Chicago store owner played a key role in a conspiracy to
defraud SNAP by using multiple electronic benefit transfer point of service (POS) terminals. He
provided terminals to other store owners to use in the trafficking of SNAP benefits. The store
owner received 15 percent of the profits generated by the POS machines and a fee for the use
of the machines. In June 2010, a Federal court in Illinois sentenced him to 32 months of
incarceration, three years of supervised release, and ordered him to pay $2.5 million in
restitution for his part in the criminal enterprise. Other subjects in this conspiracy were
previously sentenced to varying terms of incarceration and have been ordered to pay restitution
in amounts ranging from $98,000 to $3.6 million.
FOOD AND NUTRITION SERVICE: Detroit City Employee Sentenced, Ordered to Pay
$400,000 in Restitution for WIC Fraud

An OIG investigation revealed that a Detroit city employee created fictitious case files to
generate WIC coupons and subsequently sold them to individuals who were not eligible for
program benefits. In August 2010, the employee was sentenced by a Federal court in the
Eastern District of Michigan to 12 months imprisonment and restitution of $400,000. Michigan
State Police and a representative of OIG’s National Computer Forensic Division assisted in
serving a Federal search warrant in this case.
